No.

In The
Supreme Court of the United States

VERONICA W. OGUNSULA,
Petitioner
vs.
ERIC H. HOLDER, JR. ET AL.
Respondents

On Petition for Writ of Certiorari to the
United States Court of Appeals for the
Fourth Circuit

Petition For Writ Of Certiorari

Veronica W. Ogunsula,
Pro Se
9801 Apollo Drive #6334
Largo, Maryland 20792
240-486-1427
Nona.Ogunsula@gmail.com
Petitioner

RECEIVED
SEP 2 6 2019
OFFICE OF THE CLERK
SUPREME COURT, U.S.

Ogunsula vs Holder et al--Petition Cert_9-24-19 Booklet Rule 14 FINALv2

1

QUESTIONS PRESENTED
What is the meaning of 28 U.S.C. Section
1915 (e) (2) (b) (ii), "fails to state a claim on
which relief can be granted", as it relates to
Rule 12 (b) (6)? Is there a significant
difference in the procedural process for
dismissing civil rights claims under the two
statutes?
Are the in forma pauperis plaintiffs
precluded from receiving notice, an
opportunity to respond, and leave to amend
because they filed under in forma pauperis
statute when their claims are neither
frivolous nor malicious? Should the Court
dismiss an informa pauperis complaint's
defendants, claims, or the entire complaint
without notice, an opportunity to respond, or
leave to amend?
Does federal pleading rules, and Rule 8 (a)
specifically, provide for dismissal of a
complaint or claim without notice for
asserting an incorrect statute or defective
legal theory supporting the claim asserted?

ii

LIST OF PARTIES

All parties do not appear in the caption of the case on
the cover page. A list of all parties to the Petition is as
follows:
Veronica W. Ogunsula, Petitioner
Respondents:
ERIC H. HOLDER, JR., in his official capacity
as U.S. Attorney General, Department of
Justice, (DOJ)
James B. Comey, in his official capacity as
Director, Federal Bureau of Investigation,
Washington, DC
Thomas E. Perez, individual and in his official
capacity as the former Assistant Attorney
General, Civil Rights Division, DOJ H.
Marshall Jarrett, official capacity as former
Director, U.S. Attorneys' Office, DOJ
Michael E. Horowitz, individual and in his
capacity as the Inspector General, (DOJ)
Joseph S. Campbell, individual and in his
individual capacity as the Deputy Assistant
Director, Criminal Investigative Division, FBI
Sandra A. Bungo, in her individual capacity as
the Unit Chief, Initial Processing Unit, Internal
Investigations Section, Inspections Division,
FBI Rod Rosenstein, individually, U.S. Attorney
for Maryland, Baltimore, Maryland
Bryan E. Foreman, individually and in his
official capacity as the former Assistant U.S.
Attorney, Greenbelt Maryland
Thomas Coyle, individually and in his official
capacity as an Agent, FBI Baltimore, Maryland

111

Stephen E. Vogt, in his individual capacity as
the Special Agent In Charge, FBI Baltimore,
Maryland
Sharon Marcus-Kurn, individually, U.S.
Attorney's Office, Washington, D.C.
David Abramowitz, individually and in his
capacity as the Vice President, Humanity
United, Washington, DC
Derrick Nutall, individually and in his official
capacity as the Pastor & New Bethel Baptist
Church, Washington, DC
Bishop Neavelle Coles, in his capacity as the
Jurisdictional Bishop of the D.C. Jurisdiction,
Church of God In Christ, Washington, D.C.
Glen F. Ivey, individually and in his official
capacity as the former State's Attorney, Prince
George's County Maryland
Franklin Shelton, Prosecutor, Prince George's
County Maryland
Renee Battle Brooks, Prosecutor, Prince
George's County Office of the State's Attorney
Angela Alsobrooks, in her official capacity as
the State's Attorney, Prince George's County
Maryland Government
Prince George's County Health Department,
Largo, Maryland
Michael Lanier, Detective, Greenbelt Maryland
Police Department
Mark A. Magaw, in his official capacity as
Chief, Prince George's County Maryland
Police Fraternal Order of Police, National
Headquarters
Vernon R. Herron, individually and in his
capacity as the former Deputy Chief
Administrative Officer, Public Safety and
Director of Homeland Security, Prince George's
County Government

iv

Gwendolyn T. Clerkley of Prince George's
County Maryland Government;
Montora Mays of Prince George's County
Maryland Government
Paul and Crystal Scott, Bethesda, Maryland;
Lisa A. Owens, Bowie, Maryland
Robert J. Williams, Sr., individually and in his
capacity as the Pastor & St. Paul Baptist
Church, Capitol Heights, Maryland
John K. Jenkins, individually and in his
capacity as the Pastor of First Baptist Church
of Glenarden, Landover, Maryland
Fannie Mae, Washington, DC
Mike Torrey, Long & Foster, Annapolis
Maryland
Geesing/BWW Law Group, Bethesda, Maryland
John Doe
Jane Doe

Table of Contents
QUESTIONS PRESENTED
LIST OF PARTIES

ii

TABLE OF AUTHORITIES

vi

STATUTUES*

vii

RULES

vii

OPINIONS BELOW
JURISDICTION

viii
ix

INTRODUCTION

1

STATEMENT OF THE CASE

3

REASONS FOR GRANTING THE WRIT

8

The Circuits Are Split On Whether Notice Is
Required Before Sua Sponte Dismissal of In Forma
Pauperis Pro Se Complaints
8
Harmonize Pleading Standards for Discrimination
Claims In Light of Swierkiewicz, Twombly and Iqbal
11
CONCLUSION

24

APPENDICES

26

vi

TABLE OF AUTHORITIES

Cases
18
Abbas vs. Dixon, 480 F.3d 636 2d
2
Ashcroft vs Iqbal, 129 S.Ct. 1937, 2009
14
Bloch vs Riber, 156 F.3d 673, 1998
21
Chute v. Walker, 281 F.3d 314, 319, 1st Cir.2002
20
Eades v. Thompson, 823 F.2d 1055, 7th Circuit, 1987
Exxon Mobil Corp. v. Saudi Basic Industries Corp., 544
16
U.S. 280,
22
Forman v Davis 371 U.S. 17883, 1962
Futura Dev. of P.R., Inc. v. Estado Libre Asociado de P.R.,
21
144 F.3d 7, 14, 1st Cir.1998
16
Green vs Francis 705 F.2d 846 6th Circuit 1983
20
Haines v. Kerner, 404 U.S. 519, 1972
16
Hishon v. King & Spalding, 467 U.S. 69, 1984
Jefferson Fourteenth Assocs. v. Wometco de P.R., Inc., 695
21
F.2d 524, 527, 11th Cir.1983
2, 10
Johnson vs City of Shelby, MS 135 S.Ct 346, 2014
8
Lugo vs Keane, 15 F.3d 29, 2nd Circuit 1994
McEachin v. McGuinnis, 357 F.3d 197, 200, 2nd Circuit,
19
2004
Mullane v. Central Hanover Bank & Trust Co., 339 U.S.
19
306, 314, 70 S.Ct. 652, 657, 94 L.Ed. 865 (1950)
23
Neitzke v. Williams, 490 U.S. 319, 1989
17
Neitzke v. Williams, 490 U.S. 319, 329-30, 109, 1989
8
Neitzke vs Williams, 490 U.S. 319,1989
Pangburn vs Culbertson, 200 F.3d 65, 2nd Circuit, 1999..22
13
Pickering v. Board of Education, 391 U.S. 563, 1968
14
Rochon vs. Gonzales, 438 F.3d 1211, 2006
15
Scheuer v. Rhodes et al., 416 U.S. 232, 1974
22
Shane v Fauver, 213 F.3d 113, 3rd Circuit, 2000
19
Snider v. Melindez, 199 F.3d 108, 113, 2d Cir.1999
20
Snider v. Melindez, 199 F.3d 108, 2d Cir., 1999

vii
Square D Co. v. Niagara Frontier Tariff Bureau, Inc., 760
21
F.2d 1347, 2d Cir.,1985
2
Swierkiewicz v. Sorema NA, 534 US 506, 2002
21
Watley vs Katz, No. 14-3862, 2nd Circuit, 2016
Woods v. City of Greensboro, 855 F.3d 639, 4th Circuit, 2017
10

STATUTUES*
42 U.S.C. Section 1983
42 U.S.C. Section 1985
42 U.S.C. Section 1986
28 U.S.C. Section 1915

RULES
Federal Rules of Civil Procedure 8
Federal Rules of Civil Procedure 12
Federal Rules of Civil Procedure 15

viii

OPINIONS BELOW
On June 26, 2019, United States Court of Appeals for
the Fourth Circuit vacated a denial of a Motion to
Reconsider an extension of time to file a Petition For
Rehearing and Rehearing En Banc, and deemed the
Petition For Rehearing and Rehearing En Banc filed
June 9, 2016 to be timely filed. The Appeals Court
then denied the Petition after review. This order is
reprinted in the Appendix on page 32. The Order of
the U.S. Court of Appeals for the Fourth Circuit
affirming the decision of the U.S. District Court for
Maryland appears on page 34. The Order and Opinion
of the U.S. District Court is reprinted on page 36. The
transfer order from the U.S. District Court for the
District of Columbia is reprinted on page 47.

ix

JURISDICTION
The U.S. District Court for the District of Maryland
dismissed a case against the named defendants on
June 22, 2015.
The U.S. Court of Appeals for the Fourth Circuit
affirmed the decision of the lower court on March 21,
2016. On June 26, 2019, the 4th Circuit recalled its
mandate, granted the Petitioner's motion to reconsider
the denial of an extension of time to file her Petition
For Rehearing and Rehearing En Banc, and deemed
the Petition for Rehearing and Rehearing En Banc
filed June 9, 2016, to be timely filed. The court denied
the Petition for Rehearing and Rehearing En Banc
after review of the Petition.
The Supreme Court of the United States has
jurisdiction under 18 U.S.C. § 1254 (1) to review this
Petition for Writ of Certiorari.

1
INTRODUCTION
The Petitioner, Veronica Ogunsula, submitted to the
United State Supreme Court a Petition for Writ of
Certiorari on June 21, 2016. However, this Petition
was deemed untimely because a judgment has been
entered in this case by the United States Court of
Appeals for the Fourth Circuit on March 21, 2016.
The Petitioner was advised by the Clerk's Office of the
U.S. Supreme Court that she could file a Motion To
Direct The Clerk To File A Writ of Petitioner Out Of
Time. Ms. Ogunsula filed this motion on June 24,
2016. During this time the Ms. Ogunsula also filed an
Emergency Motion For Relief addressed to the Chief
Justice of the Court along with several Emergency
Motions that had been addressed to the U.S. Court of
Appeals for the Fourth Circuit.
As stated earlier, the Fourth Circuit recently reviewed
its denial of a Motion To Reconsider a request for
extension of time to file a Petition for Rehearing and
Rehearing En Banc and granted the extension of time.
The Petitioner/Appellant's Petition filed on June 9,
2016 was deemed timely. As such, Ms. Ogunsula is
renewing her Petition For Writ of Certiorari to the
Supreme Court with this filing.
The Supreme Court should grant this Writ to provide
guidance and resolve conflicts among the Circuits
regarding whether notice is recommended or
constitutionally required before a sua sponte dismissal
of an in forma pauperis pro se complaint that is
neither frivolous nor malicious, but may "fail to state a
claim on which relief may be granted". Further, the
Court should grant this Writ to provide how its view of

2

pleading standards, especially as it relates to pro se
complaints, harmonizes with its decision in Tracey L.
Johnson and David James, Jr. vs. City of Shelby,
Mississippi,_Swierkiewicz v. Sorema on heightened
pleading standards and the pleading standard set
forth in Bell Atlantic vs. Twombly and Ashcroft vs.
Iqbal. (See Johnson vs City of Shelby, MS 135 S.Ct
346, 2014, regarding dismissal of complaints for
"imperfect statement of legal theory; Swierkiewicz v.
Sorema NA, 534 US 506, 2002 for pleading standard
for civil rights cases; Bell Atlantic Corp. vs Twombly,
127 S.Ct. 1955, 2007 and Ashcroft vs Iqbal, 129 S.Ct.
1937, 2009 for pleading standards applying to all civil
cases.)

3

STATEMENT OF THE CASE
Veronica W. Ogunsula, pro se, filed a complaint on
April 22, 2015 in the United States District Court for
the District of Columbia against Eric H. Holder, in his
[official] capacity as then U.S. Attorney General;
James B. Comey, in his [official]capacity as Director of
the Federal Bureau of Investigation, Washington, DC;
Thomas E. Perez, [official] as the former Assistant
Attorney General, Civil Rights Division, United States
Department Of Justice (USDOJ); H. Marshall Jarrett,
[official] as former Director, U.S. Attorneys' Office,
USDOJ; Michael E. Horowitz, in his [official] capacity
as the Inspector General, USDOJ; Joseph S.
Campbell, in his [official] capacity as the Deputy
Assistant Director, Criminal Investigative Division,
FBI; Sandra A. Bungo, in her [official] capacity as the
Unit Chief, Initial Processing Unit, Internal
Investigations Section, Inspections Division, FBI et.
al.
Ms. Ogunsula filed the complaint along with a Motion
for Leave to Proceed in forma pauperis and an
Emergency Motion for an Order to vacate and rescind
an April 9, 2015 eviction from her home in Bowie,
Maryland. The U.S. District Court for the District of
Columbia transferred the case to the U.S. District
Court of Maryland on May 6, 2015 because of the
property interests in Maryland and the majority of the
parties resided or did business in Maryland. (See the
Transfer Order in the Appendix on page 47.) The
Maryland Court issued an order granting the in forma
pauperis Motion, but dismissed the complaint and
denied the Emergency Motion on June 22, 2015.

4

The Ms. Ogunsula originally filed the complaint
because of certain civil rights violations under 42
U.S.C. Section 1983, 1985, 1986 and other violations
including 42 U.S.C. Section 1994, witness intimidation
and retaliation related to reports she had made to
federal and local law enforcement (2009-2014) as well
as Congress (between 2009-2014). The reports were
regarding situations she encountered while working
as a contractor for Prince George's County Maryland
Government where she was employed from 2005 to
2008. The reports alleged retaliation that occurred
between 2009 and 2015 culminating with an eviction
from her primary residence in Bowie, Maryland.
During her employment with Prince George's County,
Maryland, she truthfully disclosed information in an
internal investigation regarding a federal Homeland
Security grant program that conflicted with public
statements of local government officials.
The complaint also alleged a conspiracy, retaliation
and other civil rights violation she experienced after
leaving her position at the county government that
resulted in several years of unemployment, the
foreclosure of her Bowie, Maryland home and loss of
her personal belongings. She further alleged that as
she made reports to federal law enforcement and
Congress between 2009 and 2014 about her situation,
she encountered retaliation and intimidation.
From 2012 to 2014, in an effort to obtain relief from
the extrajudicial retaliatory campaign against her
which included assault, stalking, blacklisting,
property damage, irregularities in the foreclosure of
her home and thefts, etc., Ms. Ogunsula contacted
federal law enforcement personnel by telephone, in
person and via correspondence. Ms. Ogunsula made

5

reports to police and individual members of Congress
and Congressional committees. She alleged that the
retaliation and blacklisting that occurred infringed on
her civil rights. Despite her extensive experience with
federal telecommunications/technology programs, her
written letters of recommendations, and
undergraduate and graduate degrees in business, the
complaint also alleged that Ms. Ogunsula experienced
more than 72 months of unemployment. She had not
been able to obtain full-time employment consistent
with her professional skills and education since her
resignation in May 2008 from Prince George's County
Maryland Government. She provided examples of the
alleged discrimination and blacklisting by Washington
DC area Staffing Agencies who would not hire her or
refer her for temporary staffing positions even though
she had passed their pre-screening and skills tests.
Ms. Ogunsula stated in the complaint that she
suffered discrimination based on her Nigerian
heritage, skin color, and rumors about her sexual
orientation within her religious community. She
stated facts that members of her church community
shunned and isolated her because of rumors that she
was gay.
Without anticipating a statute of limitations defense
or any other affirmative defense, Ms. Ogunsula
brought the original action against law enforcement
because they had foreknowledge of the conspiracies
and civil rights violations alleged because Ms.
Ogunsula had contacted them and or their agency
staff by mail, email, telephone or in person. The
officials failed to prevent or aid in preventing the civil
rights violations alleged that resulted in both physical,
emotional and financial harm to Ms. Ogunsula. Ms.

6

Ogunsula brought the action against other defendants
in the original action because they were parties to the
civil rights violations, acts of witness intimidation and
retaliation, and a conspiracy to cause her both
financial and emotional harm.
The U.S. District Court of Maryland issued an order
and opinion dismissing the case in part without
prejudice and in part with prejudice. The District
Court also dismissed certain defendants from the civil
complaint without notice. The U.S. District Court did
not provide Ms. Ogunsula with notice, or an
opportunity to respond or amend her complaint before
it terminated the case. Additionally, U.S. District
Court would not entertain any motions after it
delivered its order on 6/22/15.
On August 11, 2015, Ms. Ogunsula appealed the case
to the U.S. Appeals Court for the 4th Circuit Court in
Richmond, Virginia. On August 17, 2015, she
submitted to the 4th Circuit Temporary Restraining
Order Motions that she had previously submitted to
the U.S. District Court for Maryland that had been
returned to her by the U.S. District Court. She asked
the Appeals Court for relief while the case was on
appeal. On August 21, 2015, the Appeals Court issued
an order deferring the decisions on the pre-appeal
orders pending review of the Informal Brief. Also,
during the course of the appeal, Ms. Ogunsula, via
Temporary Restraining Orders, asked the Appeals
Court to grant relief from what she believed was
retaliation related to this case. She believed the
retaliation was related to this case because there was
a nexus between incidents and filings or other
activities in this case. She promptly notified both local
and federal authorities and advised the Court of her

7

actions. However, the Appeals Court did not rule on
any of the motions (See Appendix, page 34.) until the
Order was delivered on March 21, 2016. The 4th
Circuit affirmed the District Court's order and they
granted no relief in the matter.

8

REASONS FOR GRANTING THE WRIT
I.

The Circuits Are Split On Whether
Notice Is Required Before Sua Sponte
Dismissal of In Forma Pauperis Pro Se
Complaints

Introduction
The Circuit Courts are split on the important question
concerning sua sponte dismissals, without notice and
a chance to respond or amend, of in forma pauperis
pro se complaints that are not frivolous or malicious,
but may "fail to state a claim on which relief may be
granted".
The addition of "fails to state a claim on which relief
may be granted" clause to Section 1915 governing in
forma pauperis complaints in the 1995 Prison
Litigation Reform Act (PLRA) was specifically aimed
at limiting and reducing the number of "frivolous and
abusive prisoner complaints" brought against prison
officials. Congress' intent was not to abrogate the long
standing fundamental principle of our American
judicial system requiring notice before an adverse
action is taken against an individual. (See Lugo vs
Keane, 15 F.3d 29, 2nd Circuit 1994)
The Court should grant the Writ to resolve the
important question of whether a sua sponte dismissal
of a in forma pauperis pro se complaint that is neither
frivolous nor malicious, without an opportunity to
respond or amend the complaint, conflicts with the
U.S. Congress' original intention in enacting Section
1915 which was to provide equal access to the courts
and put "indigent plaintiffs on a similar footing with
paying plaintiffs" (See Neitzke vs Williams, 490 U.S.

9

319,1989). Congress' goal, as reflected in the
Congressional records, overwhelmingly emphasized
prisoner complaints and not pro se complaints brought
by members of the general public. So it appears that
Congress' intent was not to restrict the number of pro
se complaints brought in good faith by the general
public where there was no documented evidence of
excessive abuse or frivolousness. Since Section 1915(e)
applies to all in forma pauperis complaints, not just
those filed by prisoners, an interpretation that 1915
(e) precludes (notice and) leave to amend would
penalize all in forma pauperis plaintiffs for the alleged
abuses of one group of plaintiffs. (From Lopez vs.
Smith, 203 F. 3d 1122, 9th Circuit 2000; emphasis
added)
Additionally, the Court should grant this writ to
provide guidance and resolve conflicts among the
Circuits regarding whether notice is recommended
before a sua sponte dismissal of an in forma pauperis
pro se complaint. The First, Second, Seventh, Ninth,
and Eleventh Circuits favors giving notice and a
chance to amend an in forma pauperis
complaint/claim that is not frivolous or malicious and
"fails to state a claim on which relief may be granted"
in accord with Rule 12 (b) (6). A paying pro se litigant
would not be subject to a sua sponte dismissal under
Rule 12 (b) (6) except under extraordinary conditions.
Strengthening the notice pleading standard for in
forma pauperis pro se litigants who most often have
little to no knowledge of the legal system, but are
forced to represent themselves, would put litigants on
notice of an opportunity to act.
Lastly, the Court should grant this writ to review how
its 2014 decision in Tracey L. Johnson and David

10

James, Jr. vs. City of Shelby, Mississippi it relates to
the Petitioner case. In Shelby this Court stated that a
"dismissal of a complaint for imperfect statement of
legal theory supporting the claim asserted" is not
required. (See Johnson vs City of Shelby, MS 135 S.Ct
346, 2014) In fact, this court stated in Johnson vs City
of Shelby that, "The Court should freely give leave [to
amend a pleading] when justice so requires." [See also
Federal Rules of Civil Procedure 15 (a) (2)] In this
case, 'justice so requires' this opportunity.
Now recognizing that in Bell Atlantic Corp. v.
Twombly, the Supreme Court did state a new pleading
standard requiring that "allegations must be more
than conclusory" and in Iqbal, the Court made clear
that this heightened standard applied to all civil
actions, there is even more cause for Courts to provide
notice to the pro se litigant and allow them to review
these standards against their complaint to determine
if they can plead a case given the confines that the
standards set forth. (See Woods v. City of Greensboro,
855 F.3d 639, 4th Circuit, 2017)

11

II.

Harmonize Pleading Standards for
Discrimination Claims In Light of
Swierkiewicz, Twombly and Iqbal

In Swierkiewicz v. Sorema NA, 534 US 506 Supreme
Court 2002, the Supreme Court affirmed the standard
set forth by the Federal Rules of Civil Procedure 8 (a)
(2) which states that "a complaint must include only
"a short and plain statement of the claim showing that
the pleader is entitled to relief." Rule 8 further states
that the "simplified pleading standard applies to all
civil actions, with limited exceptions. If the Ogunsula
vs. Holder et al. pleading failed to specify the
allegations in a manner that provided sufficient notice
and the claim (s) and/or cause (s) is not frivolous, the
District Court should have used the notice pleading
process under Rule 12 , specifically Rule 12 (e) to
obtain a more understandable, concise complaint or
provide notice of impending dismissal and allowed the
plaintiff to respond or leave to amend complaint.
As the original complaint surely exemplifies,
pro se parties are presented with a daunting task of
knowing in which court (i.e., State vs. Federal) to
plead his/her case and how much information to
include in a complaint. The Federal Rules of Civil
Procedures' Rule 8, once discovered, are both a guide
and somewhat of a saving grace for pro se plaintiffs
who are inexperienced with the courts and the legal
process, and who for one reason or another have to
represent themselves. For this pro se plaintiff, the
Federal Rules of Civil Procedure were discovered after
the initial pleading was filed.
For example, the plaintiff intended to communicate
very strongly that she felt "retaliated" against because

12

she reported wrongdoing related to the administration
of a federal grant program to federal law enforcement
and Congress in 2009. (For example, see Ogunsula vs
Holder, #174, 175, 184, etc., pg. 50ff) This was initially
identified in the complaint as witness intimidation
and retaliation (18 U.S.C. §§ 1512 & 1513). In a
subsequent brief to the Appeals Court, the Appellant
correctly identified the events as First Amendment
violation under section 1983. In the complaint, she did
not designate the violation as Section1983 First
Amendment retaliation although she used the word
"retaliation at least 15 times and retaliatory acts (four
times). Instead the facts ascribed to the retaliatory
acts in the Ogunsula vs Holder complaint were
claimed incorrectly under 18 U.S.C. §§ 1512 and 1513,
a criminal statute prohibiting witness tampering and
retaliation. This was an incorrect statute.
To be sure, some of the claims may be time barred by
statute, however this does not defeat the need for
notice and the opportunity to amend the complaint
considering the statute of limitations and the need to
plead facts that fall within the statutory time period.
The Petitioner believes that she can comply with this
requirement.
For example, the plaintiff intended to communicate
very strongly that she felt "retaliated" against because
she reported wrongdoing related to the administration
of a federal grant program to federal law enforcement
and Congress in 2009. (For example, see Ogunsula vs
Holder, #174, 175, 184, etc., pg. 50ff) This was initially
identified in the complaint as witness intimidation
and retaliation (18 U.S.C. §§ 1512 & 1513). In a
subsequent brief to the Appeals Court, the Appellant
correctly identified the events as First Amendment

13

violation under section 1983. In the complaint, she did
not designate the violation as Section1983 First
Amendment retaliation although she used the word
"retaliation at least 15 times and retaliatory acts (four
times). Instead the facts ascribed to the retaliatory
acts in the Ogunsula vs Holder complaint were
claimed incorrectly under 18 U.S.C. §§ 1512 and 1513,
a criminal statute prohibiting witness tampering and
retaliation. This was an incorrect statute.
Also, the Ogunsula vs Holder et al. complaint pled the
following on pg. 38, para 126 that Ms. Ogunsula sent a
letter to the FBI Inspector General in 2012 and
provided "new information which she had not
previously disclosed to the Baltimore Field Office
regarding activities she believed to be criminal civil
rights violations and a conspiracy against rights
violation under the color of law, peonage and included
a cover-up of said activities." If the allegations are
accepted as true and, the injuries claimed by the
plaintiff were perpetrated by the Defendants, such as
foreclosure of her Prince George's County home and
loss of her livelihood; and if Ms. Ogunsula was
targeted, as alleged, for this conspiracy because she
made reports to the federal authorities and Congress
of corruption and retaliation by her former employer,
then she would have a valid retaliation claim. (See
Pickering v. Board of Education, 391 U.S. 563, 1968)
In Bloch v. Ribar, Bloch applied the following threepart definition of retaliation: "(1) that the plaintiff was
engaged in a constitutionally protected activity; (2)
that the defendant's adverse action caused the
plaintiff to suffer an injury that would likely chill a
person of ordinary firmness from continuing to engage
in that activity; and (3) that the adverse action was

14

motivated at least in part as a response to the exercise
of the plaintiffs constitutional rights." (Bloch vs Ribar,
156 F.3d 673, 1998) It must be added that the plaintiff
made reports to Congress and federal law enforcement
in 2009. But she also, made reports and requested
oversight from Congressional Committees in 2013 and
2014. It is plausible that the defendants wanted to
punish Ms. Ogunsula for making reports to federal
law enforcement about corruption she had experienced
and requesting oversight by Congress and
Congressional Committees. Ms. Ogunsula alleged
injuries such as stalking, blacklisting from
employment opportunities (2012-2015), foreclosure of
her home in 2013/2014, and an illegal eviction from
her home in 2015 in which all of her personal property
was deposed of. This is the type of "injury that would
likely chill a person of ordinary firmness from
continuing to engage in that activity." (See also Bloch
vs Ribar)
Law enforcement in fact refused to investigate the
civil rights abuses, criminal assault and acts of
intimidation inflicted upon the plaintiff and neglected
to follow normal investigative procedures. Their
actions create a claim of retaliation. (See Rochon vs.
Gonzales, 438 F.3d 1211, 2006) Ms. Ogunsula should
have the opportunity to amend her complaint and
include facts that support the retaliation she alleges.
Lastly, if private individuals participated with law
enforcement or public officials or acted alone, as
alleged, to deny Ms. Ogunsula certain Constitutional
protections, such as 14th amendment protections (e.g.,
equal protection or due process with regard to her
person or property rights, etc.), and in addition to the
retaliation, if her Nigerian heritage, skin color, or

15

perceived sexual orientation were factors (animus),
then these would be civil rights violations (Section
1983/1985). The notice to federal law enforcement and
their failure to prevent these violations or injuries
would also constitute Section 1986 violations.
So then, the Rule 8 standard contradicts the District
Court's statement regarding the 42 U.S.C. § 1985
claims. The Court said, "A cause of action under
§1985(3) requires proof of a conspiracy to deprive a
person of "rights or privileges" under the law. Absent
evidence that Plaintiff's rights were violated by
Defendants, there is no claim under §1985." We
know that, "when a federal court reviews sufficiency of
a complaint, before reception of any evidence either by
affidavit or admissions, the issue is not whether the
plaintiff will ultimately prevail or is likely to prevail
but whether claimant is entitled to offer evidence to
support claims." (Scheuer v. Rhodes et al., 416 U.S.
232, 1974) Further, the pleading standard as stated in
in Swierkiewicz v. Sorema does not require a
statement of evidence at the pleading stage.
In Green vs Francis, the 6th Circuit Court of Appeals
affirmed a judgment of liability against law
enforcement for "deprivation of plaintiff's right to
security" when they failed to investigate or intercede
to prevent civil rights violations including violence
and intimidation. Holding that no right is held more
sacred, or is more carefully guarded, by the common
law, than the right of every individual to the
possession and control of his own person, free from all
restraint or interference of others, unless by clear and
1 Ogunsula

vs. Holder et al, Case No. GJH-15-1297, United
States District Court of Maryland, Opinion, see ECF No. 9, pg. 4,
para 2.

16

unquestionable authority of law. (Green vs Francis
705 F.2d 846 6th Circuit 1983)
Additionally, with regard to the Petitioner's Bowie,
Maryland home, Ms. Ogunsula was not seeking an
appeal of the State Court's foreclosure proceedings.
She was raising constitutional (due process) and civil
rights issues with the administration of the legal
process that divested her of her property interests.
She believed that she had a factual claim regarding
the action of certain state and private actors. Further
she was asking the District Court to take jurisdiction
over these constitutional and civil rights issues. These
specific issues do not conflict with the RookerFeldman doctrine. According to Exxon Mobil vs. Saudi
Basic Industries Corp., "If a federal plaintiff
present[s] [an] independent claim,"' it is not an
impediment to the exercise of federal jurisdiction that
the "same or a related question" was earlier aired
between the parties in state court. (See Exxon Mobil
Corp. v. Saudi Basic Industries Corp., 544 U.S. 280,
2005),
U.S. C. 28 § 1915 (e) (2) (b) (ii) vs Rule 12 (b) (6)
The standard of review for dismissal for failure to
state a claim on which relief can be granted under
Rule 12 is: This court accepts as true the facts
alleged in the complaint, views them in the light most
favorable to the plaintiff, and recognizes that
dismissal is inappropriate "unless it appears to a
certainty that the plaintiff would be entitled to no
relief under any state of facts which could be proved in
support of [her] claim." (See Hishon v. King &
Spalding, 467 U.S. 69, 1984) (explaining that
dismissal for failure to state a claim is proper "only if

17

it is clear that no relief could be granted under any set
of facts that could be proved consistent with the
allegations").
Further, a Rule 12(b) (6) motion affords a plaintiffs
certain procedural protections such as, notice and the
opportunity to amend a complaint before the court
rules on the motion, the U.S. Supreme Court has
noted. (See Neitzke v. Williams, 490 U.S. 319, 329-30,
109, 1989).
So then, it is evident that under Rule 12 (b) (6) the
entire complaint should not have been dismissed with
prejudice without notice when the Court stated that
only one of its claims was frivolous. With notice, the
plaintiff could have responded to the Court regarding
the retaliation claims and requested leave to amend
the complaint. Also, the plaintiff could have also
provided a rebuttal regarding the Court's dismissal of
some claims based on the statute of limitations
defense. The District Court could not tell from the face
of the complaint whether there may be some
meritorious tolling argument(s) against the statute of
limitations defense. Claim No. 8 in the original
complaint, as it relates to the denial of a federal
benefit by the Department of Social Services of Prince
George's County, Maryland, is not time barred. Claim
No. 5 related to the tuberculosis test is also not time
barred as the incident was reported to federal law
enforcement in 2012. Claim No. 4 is not time barred
based on the discovery of potential evidence of the
furtherance of a conspiracy in 2014. Count No. 14 is
based on events that took place in 2014. With notice
from the Court and an opportunity to amend, a
decision can be made on the merits of a complaint and

18

the plaintiff is given the opportunity to plead his/her
best case.
Further District Court's decision squarely conflicts
with Abbas vs. Dixon and with case law of the First,
Second, Fourth, Seventh, Ninth, and Eleventh
Circuits regarding sua sponte dismissals without
giving notice and a chance to amend an in forma
pauperis complaint/claim that is not frivolous or
malicious and "fails to state a claim on which relief
may be granted". (See Abbas vs. Dixon, 480 F.3d 636
2d)
The Ninth Circuit has interpreted the final
form of dismissal under the [in forma pauperis]
statute, failure to state a claim upon which relief may
be granted, to be essentially synonymous with a
Federal Rules of Civil Procedure 12(b) (6) dismissal.
The Second Circuit agrees. The Fourth Circuit as well
as other Circuits review pro se and in forma pauperis
cases dismissed for "failure to state a claim..."
according to the procedures under Rule 12 (b) (6). And
Neitzke v. Williams provided even greater clarity by
stating that the claims dismissed under the "fails to
state a claim..." clause are not necessarily frivolous.
These are two distinct categories under Section 1915.
In Abbas vs Dixon et al. where the District Court
dismissed the Abbas' in forma pauperis complaint for
"failure to state a claim...", the Second Circuit of
Appeals said the following:
Although section 1915A grants courts the authority to
dismiss a complaint with prejudice, nothing in
sections 1915 and 1915A alters "[t]he settled rule ...
that a complaint should not be dismissed for failure to
state a claim unless it appears beyond doubt that the

19

plaintiff can prove no set of facts in support of his
claim which would entitle him to relief." (McEachin v.
McGuinnis, 357 F.3d 197, 200, 2nd Circuit, 2004,
internal quotations omitted).
The Second Circuit opinion went on to say that
"providing a plaintiff with notice and an opportunity
to be heard is often necessary to establish the fairness
and reliability of a dismissal." (See Snider v. Melindez,
199 F.3d 108, 113, 2d Cir.1999). This is also echoed in
the 9th Circuit's Lopez v. Smith case. Lugo vs Keane
stated that: ,
No principle is more fundamental to our system of
judicial administration than that a person is entitled
to notice before adverse judicial action is taken
against him. See generally Volkswagenwerk
Aktiengesellschaft v. Schlunk, 486 U.S. 694, 707, 108
S.Ct. 2104, 2112, 100 L.Ed.2d 722 (1988) (due process
requires notice of pendency of action and opportunity
to be heard) (citing Mullane v. Central Hanover Bank
& Trust Co., 339 U.S. 306, 314, 70 S.Ct. 652, 657, 94
L.Ed. 865 (1950)). See also Fed.R.Civ.P. 7(b) (1)
(motions generally required to be on notice);
Even the Fourth Circuit in Ostrzenski v. Seigel, also
agreed with this point of law. It said quoting the
Federal Practice and Procedure § 1357:
A dismissal under Rule 12(b) (6) generally is not final
or on the merits and the court normally will give
plaintiff leave to file an amended complaint. The
federal rule policy of deciding cases on the basis of the
substantive rights involved rather than on
technicalities requires that plaintiff be given every
opportunity to cure a formal defect in his pleading.
This is true even though the court doubts that

20

plaintiff will be able to overcome the defects in his
initial pleading. Amendment should be refused only if
it appears to a certainty that plaintiff cannot state a
claim. The better practice is to allow at least one
amendment regardless of how unpromising the initial
pleading appears because except in unusual
circumstances it is unlikely that the court will be able
to determine conclusively on the face of a defective
pleading whether plaintiff actually can state a claim.
In the case at hand, Ogunsula vs. Holder et al.,
the District Court dismissed the entire complaint sua
sponte without prior notice and accorded the plaintiff
no opportunity to respond or amend. This puts the pro
se plaintiff at a significant disadvantage. According
opportunities for responsive pleadings to indigent
litigants commensurate to the opportunities accorded
similarly situated paying plaintiffs is all the more
important because indigent plaintiffs so often proceed
pro se and therefore may be less capable of
formulating legally competent initial pleadings. (See
Haines v. Kerner, 404 U.S. 519, 1972).
In general, sua sponte dismissals of complaints
brought in good faith are disfavored. Adequate notice
aids the courts in securing a "just determination" by
giving the party moved against the opportunity to
present their best arguments and response.
(Paraphrasing Eades v. Thompson, 823 F.2d 1055,
7th Circuit, 1987) The Second Circuit in Watley vs.
Katz, said, "district courts should not dismiss a pro se
complaint without giving the plaintiff an opportunity
to be heard "unless it is unmistakably clear that the
court lacks jurisdiction, or that the complaint lacks
merit or is otherwise defective." (Snider v. Melindez,
199 F.3d 108, 2d Cir., 1999). Failure to afford such an

21

opportunity "may be, 'by itself, grounds for reversal."'
(quoting Square D Co. v. Niagara Frontier Tariff
Bureau, Inc., 760 F.2d 1347, 2d Cir.,1985) (Friendly,
J.)). The 2nd Circuit in Watley provided this
admonishment: "District Courts should not dismiss a
pro se complaint without giving the plaintiff an
opportunity to be heard." (Watley vs Katz, No. 143862, 2nd Circuit, 2016)
The First Circuit's case law provides this guidance:
"Sua sponte dismissals are strong medicine, and
should be dispensed sparingly." (Chute v. Walker, 281
F.3d 314, 319, 1st Cir.2002) (quoting Gonzalez—
Gonzalez v. United States, 257 F.3d 31, 33 (1st
Cir.2001)) (internal quotation marks omitted). The
general rule is that sua sponte dismissals of
complaints under Rule 12(b) (6), which is synonymous
with the referenced clause under Section 1915 (e), are
"erroneous unless the parties have been afforded
notice and an opportunity to amend the complaint or
otherwise respond." (See Futura Dev. of P.R., Inc. v.
Estado Libre Asociado de P.R., 144 F.3d 7, 14, 1st
Cir.1998).
The Eleventh Circuit feels strongly about the
requirement that notice pleading be afforded to pro se
plaintiff and instituted the following:
"...this Court has prohibited sua sponte dismissals
under Rule 12(b)(6) where: 1) the defendant had not
filed an answer and the plaintiff still had a right to
amend his complaint pursuant to Rule 15(a) of the
Federal Rules of Civil Procedure." (See Jefferson
Fourteenth Assocs. v. Wometco de P.R., Inc., 695 F.2d
524, 527, 11th Cir.1983).

22

The Supreme Court in Neitzke v. Williams stated that
"unless there is " 'indisputably absent any factual or
legal basis' " for the wrong asserted in the complaint,
the trial court, "[i]n a close case," should permit the
claim to proceed at least to the point where responsive
pleadings are required."
Rule 15 (a) directs courts to grant leave to amend
"when justice so requires". (See Forman v Davis 371
U.S. 17883, 1962 , and Pangburn vs Culbertson, 200
F.3d 65, 2nd Circuit, 1999) Some courts hold that
where a complaint's deficiency could be cured by an
amendment, the district court is expected to notify the
parties of the opportunity to amend. (Shane v Fauver,
213 F.3d 113, 3rd Circuit, 2000)

The Appellant drafted the original complaint (April
2015) without a considerable view of the law or the
Rules of Civil Procedure (FRCP). And while the
Appellant is by no means and expert in the law, the
FRCP, or the U.S. Court System, she would greatly
benefit from the opportunity to amend her original
complaint to provide a more concise statement that
addresses her specific injuries (as it relates to Article
III) and the facts that link some of the defendants to
the allegations in the complaint. It is evitable, that
some defendants may be dismissed or some claims
may be dismissed or dropped from the complaint, but
the notice and opportunity to respond to the Court will
result in a more just determination of the adequacy of
the plaintiffs claims.

23

Summary
The original purpose of the in forma pauperis statute
was to put complainant who could not pay court fees
on equal footing with those who could afford to bring
law suits. Justice Marshall stated in Neitzke vs
Williams that the statute's overarching goal intended
by Congress was to make the courts accessible to all
litigants and give "equality of consideration for all
litigants". (Neitzke v. Williams, 490 U.S. 319, 1989)
This purpose is juxtapose with the two realities that
most in forma paurperis complainants are pro se and
have very little knowledge of the law or judicial
procedure. However, they must author a complaint
that presents their claims in a manner that states
that they have been wronged and these are the laws
that provide them an opportunity for relief. The court
then also has a formidable task of determining
whether or not the laws the complainants have stated
offer them a means of relief for their alleged wrongs.
This Petitioner believes that it is most difficult for the
pro se plaintiff. Such was the case for this Petitioner.
Opportunity -LI amend the Petitioner's complaint is in
the interest of justice.

24

CONCLUSION

For the foregoing reasons, the Petitioner is requesting
the U.S. Supreme Court grant this Petition For Writ
of Certiorari.

Dated:

September 24, 2019

Respectfully submitted,

Veronica W.
Veronica W. Ogunsula, Pro Se

25

26

APPENDICES

27

28

APPENDICES
Table of Contents

App. 1
United States Court of Appeals
For the 4th Circuit— No. 15-1929, Order,
Rehearing and Rehearing En Banc

32

App. 2
United States Court of Appeals
For the 4th Circuit— No. 15-1929,
Judgment

34

App. 3
United States District Court for the District
of Maryland—No. GJH-15-1297,
Memorandum of Opinion

36

App. 4
United States District Court for the District
of Maryland No. GJH-15-1297, Order
45
App. 6
United States District Court for the District
of Columbia No. 1:15-cv-00668, Transfer
Order

47

29

